          U.S. ENVIRONMENTAL PROTECTION AGENCY
          OFFICE OF INSPECTOR GENERAL



                                         Catalyst for Improving the Environment


Site Visit Report




        American Recovery and
        Reinvestment Act Site Visit of the
        La Plata Water Treatment Plant
        Phase II Project, Aibonito,
        Puerto Rico
        Report No. 11-R-0232

        May 23, 2011
Report Contributors:                               Jean Bloom
                                                   Jessica Knight
                                                   Glen Chabotar
                                                   Vanessa Rodriguez-Moya




Abbreviations

DBA           Davis-Bacon Act
DWSRF         Drinking Water State Revolving Fund
EPA           U.S. Environmental Protection Agency
PRASA         Puerto Rico Aqueduct and Sewer Authority


Cover photo: American Recovery and Reinvestment Act of 2009 construction activity at the
             La Plata Water Treatment Plant Phase II Project site, Aibonito, Puerto Rico.
             (EPA OIG photo)




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:    OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue NW
  fax:       703-347-8330                                       Mailcode 8431P (Room N-4330)
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                       U.S. Environmental Protection Agency 	                                             11-R-0232
                                                                                                        May 23, 2011
                       Office of Inspector General


                       At a Glance
                                                                          Catalyst for Improving the Environment


Why We Did This Review              American Recovery and Reinvestment Act
The U.S. Environmental
                                    Site Visit of the La Plata Water Treatment
Protection Agency (EPA), Office     Plant Phase II Project, Aibonito, Puerto Rico
of Inspector General, conducts
site visits of American Recovery     What We Found
and Reinvestment Act of 2009
(Recovery Act) funded clean         We conducted an unannounced site visit of the La Plata Water Treatment Plant
water and drinking water            Phase II Project in Aibonito, Puerto Rico, in August 2010. We toured the
projects. We selected the project   project site; interviewed personnel from PRASA, its subcontracted field
in Aibonito, Puerto Rico, for       inspector, the Puerto Rico Department of Health, and the contractor’s managers
review.                             and employees; and reviewed documentation related to Recovery Act
                                    requirements.
Background
                                    During our review, we were unable to determine the total hours worked for
The Puerto Rico Aqueduct and        employees due to variances in labor hours reported on certified payroll reports
Sewer Authority (PRASA)             and employee pay stubs. As a result, we could not determine compliance with
received $19.5 million in funding   the wage rate requirements or reporting requirements under the Recovery Act.
under the Drinking Water State
Revolving Fund Program from          What We Recommend
the Puerto Rico Infrastructure
Financing Authority, acting on      We recommend that the Regional Administrator, Region 2, require that
behalf of the Commonwealth of       PRASA reconcile the payroll hours reported, verify that previously reported
Puerto Rico. The funding            Section 1512 information reflects actual hours worked, and verify that future
agreement included a $2,606,900     hours reported are supported by payroll reports and pay stubs. We also
loan of Recovery Act funds.         recommend that the Regional Administrator review PRASA’s reconciliation
                                    and verification responses and ensure compliance with Sections 1512 and 1606
                                    of the Recovery Act. Region 2, PRASA, and the Puerto Rico Department of
                                    Health agreed with all findings and recommendations.



For further information, contact
our Office of Congressional,
Public Affairs and Management
at (202) 566-2391.

The full report is at:
www.epa.gov/oig/reports/2011/
20110523-11-R-0232.pdf
                        UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                     WASHINGTON, D.C. 20460


                                                                            THE INSPECTOR GENERAL




                                           May 23, 2011

MEMORANDUM

SUBJECT:	 American Recovery and Reinvestment Act Site Visit of the
          La Plata Water Treatment Plant Phase II Project, Aibonito, Puerto Rico
          Report No. 11-R-0232


FROM:          Arthur A. Elkins, Jr.
               Inspector General

TO:	           Judith A. Enck
               Regional Administrator, Region 2


This is our report on the subject site visit conducted by the Office of Inspector General of the
U.S. Environmental Protection Agency (EPA). The report summarizes the results of our site visit
of the La Plata Water Treatment Plant Phase II Project in Aibonito, Puerto Rico, funded under
the American Recovery and Reinvestment Act of 2009 (Recovery Act).

We performed this site visit as part of our responsibility under the Recovery Act. The purpose of
our site visit was to determine whether the Puerto Rico Aqueduct and Sewer Authority complied
with selected requirements of the Recovery Act pertaining to the Drinking Water State Revolving
Fund program. The Puerto Rico Aqueduct and Sewer Authority received $19.5 million in funding
from the Puerto Rico Infrastructure Financing Authority, acting on behalf of the Commonwealth
of Puerto Rico, under the Drinking Water State Revolving Fund Program. The funding agreement
included a $2,606,900 loan of Recovery Act funds for the Aibonito project.

The estimated direct labor and travel costs for this report are $77,599.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days, or by August 22, 2011. You should include a corrective action
plan for agreed-upon actions, including milestone dates. Your response will be posted on the
Office of Inspector General’s public website, along with our memorandum commenting on your
response.
Your response should be provided as an Adobe PDF file that complies with the accessibility
requirements of Section 508 of the Rehabilitation Act of 1973, as amended. The final response
should not contain data that you do not want to be released to the public; if your response
contains such data, you should identify the data for redaction or removal. We have no objection
to the further release of this report to the public. This report will be available at
http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Melissa Heist,
Assistant Inspector General for Audit, at (202) 566-0899 or heist.melissa@epa.gov; or Robert
Adachi, Director of Forensic Audits, at (415) 947-4537 or adachi.robert@epa.gov.
American Recovery and Reinvestment Act                                                                                         11-R-0232
Site Visit of the La Plata Water Treatment Plant
Phase II Project, Aibonito, Puerto Rico


                                      Table of Contents

   Purpose........................................................................................................................   1


   Background .................................................................................................................      1


   Scope and Methodology.............................................................................................                1


   Results of Site Visit.....................................................................................................        1


           Buy American Requirements................................................................................                 2

           Wage Rate Requirements ....................................................................................               2

           Contract Procurement ..........................................................................................           3     

           Limit on Funds and Reporting Requirements.......................................................                          3


   Recommendations ......................................................................................................            4


   Agency, Recipient, and Subrecipient Responses to Draft Report .........................                                           4


   OIG Comment on Responses ....................................................................................                     4


   Status of Recommendations and Potential Monetary Benefits..............................                                           5




Appendix
   A       Distribution ........................................................................................................     6

Purpose
            The purpose of our unannounced site visit was to determine the Puerto Rico
            Aqueduct and Sewer Authority’s (PRASA’s) compliance with selected
            requirements of the American Recovery and Reinvestment Act of 2009 (Recovery
            Act) that pertain to the Drinking Water State Revolving Fund (DWSRF) Program.

Background
            The La Plata Water Treatment Plant Phase II Project in Aibonito, Puerto Rico,
            includes various improvements to the local drinking water treatment plant. The
            project is funded as part of a $19.5 million funding agreement under the DWSRF
            Program from the Puerto Rico Infrastructure Financing Authority, acting on
            behalf of the Commonwealth of Puerto Rico. The funding agreement includes a
            $2,606,900 loan of Recovery Act funds for the Aibonito project.

Scope and Methodology
            Due to the time-critical nature of the Recovery Act requirements, we did not
            perform this site visit in accordance with generally accepted government auditing
            standards. Specifically, we did not perform certain steps that would allow us to
            obtain information to assess PRASA’s internal controls and any previously
            reported audit concerns. As a result, we do not express an opinion on the
            adequacy of PRASA’s internal controls or its compliance with federal, state, or
            local requirements.

            We conducted an unannounced site visit during the week of August 9, 2010.
            During our visit we:

               1. 	 Toured the project site
               2. Interviewed employees and managers on site, personnel from PRASA, its
                    subcontracted field inspector, and the Puerto Rico Department of Health
               3. Reviewed documentation maintained by PRASA and the prime contractor
                    on the following matters:
                        a. 	 Buy American requirements under Section 1605 of the Recovery
                             Act
                        b. 	 Wage Rate requirements (Davis-Bacon Act (DBA) under Section
                             1606 of the Recovery Act)
                        c. Contract procurement
                        d. 	 Limit on funds and reporting requirements under Sections 1604
                             and 1512 of the Recovery Act

Results of Site Visit
            During our site visit, we were unable to determine whether the contractor was in
            compliance with wage rate requirements under Section 1606 of the Recovery Act,

11-R-0232                                                                                  1
            involving DBA. We were also unable to determine whether PRASA was in
            compliance with Section 1512 of the Recovery Act. We summarize the specific
            site visit results below.

            Buy American Requirements

            We did not identify any Buy American issues of concern beyond those identified
            by PRASA. Our review of Buy American compliance was limited because
            PRASA was working to address Buy American issues previously identified for
            this project. As part of its Buy American oversight, PRASA conducts site visits at
            each project site and inventories all materials and equipment. PRASA officials
            then review all supporting material and equipment submittals and identify any
            issues and areas of noncompliance. PRASAs’ Buy American compliance review
            is summarized in a project-specific summary table. According to PRASA, the
            Buy American issues for this project involve instances in which the contractor
            certifications are not complete or the certifications do not comply with Buy
            American requirements. As a result of these issues, PRASA has withheld
            payment from the contractor until the noncompliance is addressed.

            PRASA provided the Office of Inspector General with a copy of its November
            2010 summary table for the La Plata project. The table provides a detailed
            summary for each submittal and identifies multiple instances of incomplete
            documentation. We reviewed the supporting documentation for a sample of
            submittals to verify the accuracy and completeness of PRASA’s Buy American
            review. Based on our review of the provided documentation, we found that
            PRASA’s Buy American summary table accurately reflected what was provided
            by the contractor and made accurate determinations regarding Buy American
            compliance.

            Wage Rate Requirements

            We were unable to determine whether the contractor was in compliance with the
            wage rate requirements of the Recovery Act. Section 1606 of the Recovery Act
            requires all mechanics and laborers employed on projects funded directly by, or
            assisted in whole or in part with, Recovery Act funds to be paid wages at rates no
            less than the locally prevailing rate, as determined by the U.S. Department of
            Labor. These wages are commonly known as DBA wages and generally include a
            requirement that employers submit certified payroll reports to the U.S.
            Department of Labor. While we found that the contractor was paying at least the
            required hourly prevailing wage, we were unable to verify whether the hours
            reported on the certified payroll reports were accurate. We reviewed certified
            payroll reports and corresponding pay stubs for five pay periods and found 12 out
            of 34 instances in which the number of hours worked reported on the certified
            payroll report did not match the number of hours reported on the pay stubs, as
            shown in Table 1.



11-R-0232                                                                                   2
            Table 1: Hour variations between certified payroll reports and pay stubs
                                             Certified payroll
             Incident Pay period ending                            Pay stub hours Variance
                                                    hours
                 1           7-24-10             0 overtime           1 overtime      1 hour
                 2           7-24-10             0 overtime           1 overtime      1 hour
                 3           7-24-10             40 regular           37 regular     3 hours
                 4           7-31-10             40 regular           37 regular     3 hours
                 5           7-31-10             6 overtime          6.5 overtime    0.5 hour
                 6           7-31-10             31 regular           23 regular     8 hours
                 7           8-07-10             14 regular           13 regular      1 hour
                 8           8-07-10             0 overtime           2 overtime     2 hours
                 9           8-07-10             40 regular           32 regular     8 hours
                10           8-07-10             0 overtime           2 overtime     2 hours
                11           8-14-10             34 regular           37 regular     3 hours
                12           8-14-10             34 regular           37 regular     3 hours
            Source: OIG analysis of data provided by the contractor.

            According to the contractor, the discrepancy in hours occurred because the pay
            stubs and the certified payroll reports are prepared by different people, who at
            times kept separate records. We could not determine which hours reported were
            correct because of insufficient supporting documentation. The contractor stated
            that the hours reported on the pay stubs are the correct hours but did not provide
            any supporting documentation to substantiate this claim. Because we could not
            determine the total hours worked for each employee, we could not verify that
            employees were paid DBA wages for each hour worked, and thus, we could not
            make a determination regarding compliance with Recovery Act wage rate (DBA)
            requirements.

            Contract Procurement

            We did not identify any issues with contract procurement or unfair bidding
            practices. PRASA competitively awarded the construction contract based on
            public advertisement. Twelve bids were received, and PRASA awarded the
            contract to the lowest responsive bidder. A sample of unsuccessful bidders
            confirmed their participation in the bidding process.

            Limit on Funds and Reporting Requirements

            We did not identify any issues or concerns with PRASA’s compliance with
            Section 1604 requirements, which state that no Recovery Act funds can be used
            for any casino, other gambling establishment, aquarium, zoo, golf course, or
            swimming pool. We reviewed the prime contract, scope of work, and project cost
            breakdown, and inspected the project site to ensure that PRASA complied with
            Section 1604 of the Recovery Act.

            We were unable to determine whether PRASA is in compliance with Section
            1512 of the Recovery Act. We reviewed the process by which PRASA provides
            its Section 1512(c) reporting information as required by the loan agreement.

11-R-0232                                                                                   3
            PRASA submits summary tables to the Puerto Rico Environmental Quality Board
            and the Puerto Rico Department of Health on a monthly basis. These tables
            provide the necessary information regarding project background, completion
            status, payments and reimbursements, and jobs created and retained. PRASA
            compiled the jobs created and retained information using the employee hours
            reported in the certified payroll reports. Because we could not reconcile the
            certified payroll hours to supporting documentation, we could not confirm
            whether jobs created and retained information reported to the Commonwealth of
            Puerto Rico were accurate and/or reliable. Therefore, we were unable to
            determine PRASA’s compliance with Section 1512.

Recommendations
            We recommend that the Regional Administrator, Region 2, require that PRASA:

               1.	 Reconcile the hours reported on the certified payroll reports and the
                   corresponding pay stubs for all pay periods reported under the project and
                   submit the reconciliation to the Regional Administrator, Region 2.

               2.	 Using the results of the reconciliation from recommendation 1, verify that
                   previously reported Section 1512 jobs created and retained information
                   reflects the actual hours worked on the project.

               3.	 Verify that future hours reported under this project are supported by
                   certified payroll reports and pay stubs.

            We also recommend that the Regional Administrator, Region 2:

               4.	 Review PRASA’s reconciliation and verification in response to
                   recommendations 1 and 2 and take the appropriate actions to ensure
                   compliance with Sections 1512 and 1606 of the Recovery Act.

Agency, Recipient, and Subrecipient Responses to Draft Report
            We issued a discussion draft on March 30, 2011. Formal written comments were
            not requested. We held an exit conference on April 19, 2011, with Region 2,
            PRASA, and the Puerto Rico Department of Health to obtain their verbal
            comments on the report.

OIG Comment on Responses
            Region 2, PRASA, and the Puerto Rico Department of Health agreed with all
            findings and recommendations.




11-R-0232                                                                                  4
                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                         POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                                        BENEFITS (in $000s)

                                                                                                             Planned
    Rec.    Page                                                                                            Completion   Claimed    Agreed-To
    No.      No.                         Subject                        Status1       Action Official          Date      Amount      Amount

     1        4     Require that PRASA reconcile the hours reported         O     Regional Administrator,
                    on the certified payroll reports and the                            Region 2
                    corresponding pay stubs for all pay periods
                    reported under the project and submit the
                    reconciliation to the Regional Administrator,
                    Region 2.
     2        4     Require that PRASA, using the results of the            O     Regional Administrator,
                    reconciliation from recommendation 1, verify that                   Region 2
                    previously reported Section 1512 jobs created and
                    retained information reflects the actual hours
                    worked on the project.
     3        4     Require that PRASA verify that future hours             O     Regional Administrator,
                    reported under this project are supported by                        Region 2
                    certified payroll reports and pay stubs.
     4        4     Review PRASA’s reconciliation and verification in       O     Regional Administrator,
                    response to recommendations 1 and 2 and take                        Region 2
                    the appropriate actions to ensure compliance with
                    Sections 1512 and 1606 of the Recovery Act.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




11-R-0232                                                                                                                                  5
                                                                              Appendix A

                                    Distribution
Office of the Administrator
Regional Administrator, Region 2
Director, Grants and Interagency Agreements Management Division,
       Office of Administration and Resources Management
Agency Followup Official (the CFO)
Agency Followup Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Audit Followup Coordinator, Region 2
Public Affairs Officer, Region 2
Executive Infrastructure Director, Puerto Rico Aqueduct and Sewer Authority
Director, Potable Water Division, Puerto Rico Department of Health
Director, Caribbean Environmental Protection Division, Region 2




11-R-0232                                                                             6
